U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 21, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Eduardo Lopez v. United States, No. 20-1356
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 22,
2021, and docketed on March 25, 2021. The government’s response is now due, after two
extensions, on June 25, 2021. We respectfully request, under Rule 30.4 of the Rules of this Court,
a further extension of time to and including July 23, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Elizabeth B. Prelogar
Solicitor General
cc:

See Attached Service List

20-1356
LOPEZ, EDUARDO
USA

JEROME DWAYNE LEE
TAYLOR LEE & ASSOCIATES LLC
6855 JIMMY CARTER BLVD.
STE. 2150
NORCROSS, GA 30071
770-650-7200
JEROME@HTLWEB.COM

